                               SOCIAL SECURITY
MEMORANDUM

Date:      February 27, 2002                                                    Refer To:

To:        JoAnne B. Barnhart
           Commissioner

From:      Inspector General

Subject:
       Controls Over the Social Security Administration’s Processing of Death
Records from the Department of Veterans Affairs (A-01-01-21038)


The attached final report presents the results of our audit. Our objective was to
determine the effect of not using the Department of Veterans Affairs death information
to terminate Old Age, Survivors, and Disability Insurance and Supplemental Security
Income payments to deceased beneficiaries and recipients.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                               James G. Huse, Jr.


Attachment

cc:
Inspector General for the Department of Veterans Affairs
Secretary of Veterans Affairs
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    CONTROLS OVER THE SOCIAL
    SECURITY ADMINISTRATION’S
  PROCESSING OF DEATH RECORDS
     FROM THE DEPARTMENT OF
        VETERANS AFFAIRS


  February 2002   A-01-01-21038
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE

Our objective was to determine the effect of not using the Department of Veterans
Affairs (VA) death information to terminate Old Age, Survivors, and Disability Insurance
(OASDI) and Supplemental Security Income payments to deceased beneficiaries and
recipients.

BACKGROUND

In May 1991, the Social Security Administration (SSA) and VA signed a Memorandum
of Understanding (MOU) for the purpose of exchanging death information. The MOU
stated that the exchange of data “…will allow SSA to properly terminate and/or adjust
impacted benefit payments and will prevent overpayments."

SSA uses its Death Alert, Control, and Update System to receive death data from
external and internal sources, and to process that information against SSA's payment
records. Also, to ensure data files received from other agencies are processed
appropriately, SSA’s Office of Systems Analysis is required to test and validate the data
matching operations. Furthermore, SSA periodically reviews its management
information reports and alerts to ensure files received from other agencies are
processed successfully. One specific report used by SSA is called the “Limiting State
Death – Run Totals,” which shows the number of death records processed by source—
including files received from VA.

In January 2001, the Office of the Inspector General received a letter from a United
States Senator regarding a constituent’s concerns about death matching operations
between SSA and VA. Specifically, a relative of this constituent had notified VA of a
beneficiary’s death—within weeks of the occurrence—so that VA benefit payments
would stop. However, SSA did not learn of this death until a year later when the same
relative reported to SSA that Social Security payments should have stopped because
the beneficiary was deceased.

RESULTS OF REVIEW
SSA made improper payments to deceased beneficiaries which could have been
avoided if SSA had processed VA death information timely. SSA staff informed us that
VA death information was not properly processed for over 2 years due to formatting
problems with VA’s data file. Based on the results of our statistical sample, we
estimate that approximately $467,725 in improper payments were made to
302 deceased OASDI beneficiaries in the months between March and May 2001.
Additionally, we found that the death information provided by VA was not always
accurate.



Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                    i
CONCLUSIONS AND RECOMMENDATIONS
Since our audit commenced, SSA has corrected the formatting/processing problems it
had with VA provided death information. Between May and July 2001, SSA processed
over 200,000 VA death records—representing deaths reported to VA between October
2000 and March 2001. However, SSA and VA need to work together to ensure death
information is as accurate as possible so resources are not expended verifying
erroneous death information.

We recommend that SSA:

·   Routinely review its management information systems input and output reports to
    ensure the VA death information is processed completely.

·   Process VA death information within a month of when it is received to ensure
    payments to deceased beneficiaries are terminated promptly.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. (See
Appendix C for SSA’s comments.)




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)               ii
                                                                    Table of Contents
                                                                                                             Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

  Deceased Beneficiaries Received Payments .......................................................3

   ·    SSA Has Taken Corrective Actions ...............................................................4

  Death Reports Received From Other Sources .....................................................4

  VA Provided Erroneous Dates of Death ...............................................................5

CONCLUSIONS AND RECOMMENDATIONS .......................................................7

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Costs to Investigate A Death Prior to Terminating Benefits

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                                                                     Acronyms
CY               Calendar Year

DACUS            Death Alert, Control, and Update System

FO               Field Office

GAO              General Accounting Office

MOU              Memorandum of Understanding

OASDI            Old-Age, Survivors, and Disability Insurance

OIG              Office of the Inspector General

SSA              Social Security Administration

SSI              Supplemental Security Income

VA               Department of Veterans Affairs




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                                                                    Introduction
OBJECTIVE

Our objective was to determine the effect of not using the Department of Veterans
Affairs (VA) death information to terminate Old Age, Survivors, and Disability
Insurance (OASDI) and Supplemental Security Income (SSI) payments to deceased
beneficiaries and recipients.

BACKGROUND

In May 1991, the Social Security Administration (SSA) and VA signed a Memorandum
of Understanding (MOU) for the purpose of exchanging death information. The MOU
stated that the exchange of data “… will allow SSA to properly terminate and/or adjust
impacted benefit payments and will prevent overpayments.” Under both SSA’s OASDI
and SSI programs, payments should terminate when the individuals receiving them die.1

SSA uses its Death Alert, Control, and Update System (DACUS) to receive death data
from external and internal sources, and to process that information against SSA's
payment records. DACUS sends an alert to the appropriate SSA field office (FO) for
processing when death information is received that does not agree with SSA payment
records. For example, if DACUS shows a date of death for a beneficiary, but the SSA
payment record shows that the beneficiary is alive, an alert is generated and the
discrepancy will be investigated. If the field office determines that the date of death is
accurate, steps will be taken to terminate the payments and collect any benefits paid
after the date of death.

To ensure data files received from other agencies are processed appropriately, SSA’s
Office of Systems Analysis is required to test and validate the data matching
operations. Also, SSA periodically reviews its management information reports and
alerts to ensure files received from other agencies are processed successfully. One
specific report used by SSA is called the “Limiting State Death – Run Totals,” which
shows the number of death records processed by source—including files received from
VA.

In January 2001, the Office of the Inspector General (OIG) received a letter from a
United States Senator regarding a constituent’s concern about death matching
operations between SSA and VA. Specifically, a relative of this constituent had notified
VA of a beneficiary’s death—within weeks of the occurrence—so that VA benefit
payments would stop. However, SSA did not learn of this death until a year later when
the same relative reported to SSA that Social Security payments should have stopped
because the beneficiary was deceased.

1
 As stated in 20 CFR 404.316, 20 CFR 404.332, 20 CFR 404.337, 20 CFR 404.341, 20 CFR 404.352,
and 20 CFR 404.371.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                         1
SCOPE AND METHODOLOGY
To accomplish our objective, we:

·   Obtained the October through December 2000 VA quarterly death file from SSA,
    containing 74,298 death records, and matched it against SSA payment records to
    identify OASDI and SSI beneficiaries/recipients receiving benefit payments. By
    analyzing this quarterly file, we identified a population of 630 OASDI beneficiaries
    and/or SSI recipients2 receiving benefits as of February 2001, but whose deaths
    were reported to VA.

·   Selected a random sample of 100 from the 630 cases to determine the effect of not
    using VA death information to terminate OASDI and SSI payments. We asked SSA
    FOs to confirm the dates of death for these 100 individuals. For the cases that were
    confirmed as deceased, we asked the SSA FOs to terminate the benefit payments
    and to initiate the recovery of any improper payments made after death in
    accordance with SSA’s procedures.

·   For the cases confirmed as deceased by SSA FOs, we determined whether SSA
    paid benefits to these beneficiaries after February 28, 2001. Specifically, we
    calculated the benefit payments SSA paid to these deceased individuals from
    March through May 2001.3

·   Referred cases suspected of fraud to OIG’s Office of Investigations.

·   Communicated with SSA staff regarding the matching of VA death information.

·   Researched the Programs Operations Manual System, the Code of Federal
    Regulations, and the Social Security Act.

·   Obtained and reviewed the MOU between SSA and VA pertaining to death
    information.

We performed our audit in Boston, Massachusetts between May and August 2001.
The entities audited were SSA’s FOs under the Deputy Commissioner for Operations
and the Office of Systems Design and Development under the Deputy Commissioner
for Systems. We conducted our audit in accordance with generally accepted
government auditing standards.


2
 The population of 630 beneficiaries/recipients consisted of 622 individuals receiving OASDI benefits,
6 individuals receiving both OASDI and SSI benefits, and 2 individuals receiving SSI payments.
3
 Based on our review of SSA’s processing guidelines for death alerts, we believe payments to these
deceased beneficiaries could have ceased by March 2001, if SSA had processed the October to
December 2000 quarterly file of VA death records timely.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                                  2
                                                           Results of Review
SSA made improper payments to deceased beneficiaries, which could have been
avoided if it had processed VA death information timely. Based on the results of our
statistical sample, we estimate that approximately $467,725 in improper payments were
made to 302 deceased OASDI beneficiaries in the months between March and
May 2001.

                                                             Specifically, our review of
          Sample Results - VA Death File                     100 sample beneficiary cases found
                                                             that:
                                          Deceased-
                                          no benefits
                                           paid after
                                                             ·   48 beneficiaries received
                                             death               $74,242 in OASDI benefits4 after
                                             39%                 their dates of death;

        Deceased-                              Alive-        ·   39 beneficiaries were not paid
         benefits                           erroneous            benefits after their dates of death
        paid after                             death             in conformance with SSA’s rules
          death                            information
                                             from VA
                                                                 and regulations; and
          48%
                                               13%
                                                             ·   13 beneficiaries were erroneously
                                                                 reported as deceased by VA.


DECEASED BENEFICIARIES RECEIVED PAYMENTS
We found that 48 of our 100 sample beneficiaries received $74,242 in OASDI
payments between March and May 2001, even though VA had reported the deaths to
                     5
SSA in January 2001. SSA staff informed us that VA death information was not
properly processed for over 2 years due to formatting problems with VA’s data file.
Specifically, VA submitted death information to SSA, but SSA was unable to process it
properly because the VA had changed the input file’s name and had not communicated
the change to SSA. Additionally, the VA did not use the proper file format needed for
SSA to process the records.

The United States General Accounting Office (GAO) suggests government agencies’
computerized activities should have processing controls “… designed to insure that
data is handled by the computer in an accurate, complete, and timely manner …
processing controls make sure that output counts from the system equals input counts


4
    This amount does not include $221 in improper SSI payments to a concurrent beneficiary in our sample.
5
    These represent deaths reported to VA between October and December 2000.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                                 3
to the system.”6 SSA’s management information system generates a “Limiting State
Death – Run Totals” report which shows the number of death records processed by
        7
source. No records processed from the VA file would indicate that there might be a
problem. However, despite this report, SSA did not successfully address the
processing problems it had with VA’s death files until earlier this year when the Senator
and OIG’s inquiries began.

SSA Has Taken Corrective Actions

Based on our referrals to the appropriate SSA FOs, SSA staff confirmed the
beneficiaries’ deaths and took action to recover improper payments made to the
48 beneficiaries who received benefit payments after their deaths. As of July 24, 2001,
SSA had recovered $39,182 (or 53 percent) of the improper payments in our sample
cases, and SSA staff continue to take action to collect the remaining funds.

For example, one of our sampled beneficiaries had a VA reported date of death of
December 21, 2000. As a result of our request, a SSA FO in Ohio performed a death
investigation and confirmed this date of death with a relative of the deceased. We
determined that this deceased beneficiary received $1,683 in OASDI benefits between
March and May 2001. As of July 2001, SSA had fully recovered these improper
payments.

Additionally, we were informed that the recent quarterly death files provided by VA were
now in the correct format and that SSA had “…seen no abnormal processing of these
cases.” SSA informed us that it processed over 200,000 VA death records between
May and July 2001. Specifically, SSA processed the October to December 2000 and
the January to March 2001 quarterly VA death files;8 and plans to process future files
as they are received from VA.

DEATH REPORTS RECEIVED FROM OTHER SOURCES

For the 39 beneficiaries whose benefit payments were correctly stopped after the
beneficiaries’ dates of death, we determined that SSA received death reports for these
individuals from sources other than VA. These death reports from other sources were
received and processed by SSA shortly after the beneficiaries died, and therefore SSA
did not incorrectly pay benefits to them.

Additionally, for our 48 sample cases who were paid after their deaths, we found that
SSA learned of the deaths for 35 of these 48 beneficiaries from sources other than VA
6
    Report to Office of Policy, “Assessing the Reliability of Computer-Processed Data,” GAO/OP-8.1.3.
7
  SSA’s “Limiting State Death – Run Totals” report showed that over 23,000 VA reported deaths were
processed through SSA’s systems in July 2001. Prior to this, the report should have indicated to SSA that
there was a problem with the VA file since it would have shown that no records were being processed.
8
  SSA also reported to us that it was working with VA to obtain a historical file of VA death records—
including deaths that occurred during the past 2 years.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                                  4
several months after they died. Specifically, SSA received the death reports for these
beneficiaries, and subsequently terminated benefits for:

      ·       19 cases in March 2001;
      ·       9 cases in April 2001; and
      ·       7 cases in May 2001.

These 35 beneficiaries received $47,757 in OASDI benefits before their payments were
terminated.9 Although, the VA is not the sole source10 of SSA’s death information,
these improper payments could have been avoided if the death file that VA provided
SSA in January 2001 had been processed timely.

For instance, one beneficiary in our sample died on October 6, 2000. This beneficiary’s
record was included in the file SSA received from VA in January 2001 covering deaths
reported to VA between October and December 2000. On April 13, 2001, SSA
received a report of this person’s death from another source; and as a result, took
action to terminate the benefit payments as of May 2001. If SSA had processed the VA
file upon its receipt, the $635 OASDI monthly payment could have been terminated in
March 2001.

VA PROVIDED ERRONEOUS DATES OF DEATH

Thirteen of our 100 sample beneficiaries were actually alive even though VA reported to
SSA that these individuals were deceased. Based on our inquiries, SSA FOs
performed death investigations on these cases and determined that these individuals
were alive; and therefore, the beneficiaries were still entitled to receive OASDI
payments. For example, one of our sampled beneficiaries had a VA reported date of
death of November 16, 2000. However, a SSA FO in Kentucky performed a death
investigation and determined the beneficiary was actually alive.

SSA’s policies and procedures require that the death of a beneficiary be verified prior to
terminating benefit payments. Specifically, when SSA receives an alleged date of
death for a beneficiary, a “death alert” is generated by SSA’s systems. SSA FO
employees then investigate this death alert to verify that the beneficiary has died prior
to stopping the benefit payments.

Due to erroneous death information provided by VA, SSA expends unnecessary
resources—which could be redirected to other SSA operations—trying to confirm a



9
    The $47,757 in OASDI payments is included in the $74,242 shown on page 3 of this report.
10
  In addition to receiving death information from VA, SSA receives death reports from relatives, funeral
homes, banks, etc.



Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                                    5
death for an individual who is actually alive.11 We estimate that it costs SSA
approximately $61 to investigate a “death alert” for a beneficiary. (See Appendix B for
more information regarding this cost estimate.)




11
  SSA notified us in December 2001 that it was forming a workgroup with other Federal agencies, who
use death information, to explore cost effective methods for improving the accuracy of this data.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                               6
                                                  Conclusions and
                                                 Recommendations
SSA could have avoided making payments to deceased OASDI beneficiaries if it had
processed VA records timely. Since our audit commenced, SSA has corrected the
formatting/processing problems it had with VA provided death information. Between
May and July 2001, SSA processed over 200,000 VA death records. However, SSA
and VA need to work together to ensure death information is as accurate as possible so
that resources are not expended verifying erroneous dates of death.

We recommend that SSA:

1. routinely review its management information systems input and output reports to
   ensure the VA death information is processed completely; and

2. process VA death information within a month of when it is received to ensure
   payments to deceased beneficiaries are terminated promptly.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Specifically,
SSA is reviewing its reports to ensure the VA death information is processed correctly;
and SSA is processing the VA death reports upon their receipt. (See Appendix C for
SSA’s comments.)




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                   7
                                               Appendices




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                                                                                   Appendix A
Sampling Methodology and Results
To complete our objective, we obtained a quarterly file containing 74,298 Department of
Veterans Affairs (VA) death records which had been provided to SSA in January 2001.
This file consisted of deaths reported to VA between October and December 2000.

We matched this file against the Social Security Administration’s (SSA) payment
records to identify Old-Age, Survivors, and Disability Insurance (OASDI) and
Supplemental Security Income (SSI) beneficiaries and recipients receiving benefits as
of February 2001. Analyzing this quarterly file, we identified a population of
630 beneficiaries and recipients1 receiving benefits, but whose deaths were reported to
VA. We selected a random sample of 100 cases from this population.




                              Sample Results and Projections

      Population size                                                                        630
      Sample size                                                                            100
                          Attribute Projections
      Sampled cases with Improper Payments                                                    48
      Projection of cases with Improper Payments                                             302
      Projection lower limit                                                                 252
      Projection upper limit                                                                 353
                      Dollar Projections/Estimates
      Sample Results – Improper Payments2                                               $74,242
      Projection – Improper Payments                                                   $467,725
      Projection lower limit                                                           $374,308
      Projection upper limit                                                           $561,141

      Note: All projections were calculated at the 90 percent confidence level.




1
 The population consisted of 622 individuals receiving OASDI benefits, 6 individuals receiving both
OASDI and SSI benefits, and 2 individuals receiving SSI payments.
2
    This amount does not include $221 improper payment of SSI to a concurrent beneficiary in our sample.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                                                                                  Appendix B
Costs to Investigate A Death Prior to
Terminating Benefits
We computed the cost for the Social Security Administration (SSA) to verify a death
prior to terminating benefits using the following information:

§   According to a January 1997 “Death Process Review” report issued by the Process
    Innovation Review Team, Social Security field offices spend between 30 minutes
    and 2 hours processing death alerts. The weighted mean time is 54 minutes.

§   The average grade level of an SSA Claims Representative is GS-11, Step 5 whose
    Fiscal Year (FY) 2001 pay rate was $24.17 per hour.

§   The average cost for SSA to provide employee benefits (e.g., health insurance) for
    the Claims Representative in FY 2001 was $5.33 per hour.

§   The SSA component level overhead cost associated with the direct salary costs in
    FY 2001 was $28.03.

§   The average cost to purchase a death certificate from a State is $9.02. However,
    SSA field offices only need to purchase death certificates from the States in
    32 percent of their cases. SSA is able to verify the deaths for the remaining
                                                   1
    68 percent of its cases through other sources. Therefore, we calculated the
    average cost of a death certificate as $2.89 ($9.02 X 32 percent).

§   The current cost for SSA to verify a death electronically through State Bureaus of
    Vital Statistics is $0.62 per record.

                                        Investigating Costs
                    $24.17      Cost of employee wages
                      5.33      Cost to provide employee benefits
                     28.03      Cost for SSA component level overhead
                      2.89      Cost to purchase death certificate
                      0.62      Cost to verify death electronically
                    $61.04      Total costs
                  Note: We rounded the 54 minutes to 1 hour in
                  calculating the employee’s wages and benefits.



1
  SSA verifies death information through a variety of sources, which include the following: family
members, representative payees, funeral homes, electronic access to State Bureaus of Vital Statistics
records, etc.


Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                                                                          Appendix C
Agency Comments




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                                                     ~        !J
                                                      'lsTJ.to:

                                        SOCIAL          SECURITY

MEMORANDUM


          J~n1;lar.y   28,   2002
                                                                                   ReferTo: SlJ-3

'0:       JamesG. Ruse, Jr.
          Inspector General

          Larry Dye
          Chief of Staff

Subject   Office of the                         I Draft Report, "Controls Over the Sodial Security
          Administration's Processing of Death Records from the Department ofVeterans       Affairs"
          (A-O 1-01-21 038)-INFORMA      TION



          We appreciateOIG's efforts in conducting this review. Our comments on the report content and
          recommendations are attached.

          Pleaselet us know if we can be of further assistance. Staff questionscan be referred to
          Dan Sweeneyon extension 51957.

          Attachment:
          SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“CONTROLS OVER THE SOCIAL SECURITY ADMINISTRATION'S PROCESSING OF
DEATH RECORDS FROM THE DEPARTMENT OF VETERANS AFFAIRS”
(A-01-01-21038)


Recommendation 1

Routinely review management information systems input and output reports to ensure the
Department of Veterans Affairs (VA) death information is processed completely.


Comment

We agree. VA reports are processed through the Enumeration Verification System (EVS) to verify
that the death has been reported under the correct Social Security number. The Death Alert,
Control and Update System (DACUS) produces a monthly report named "Limiting State Death -
Run Totals (month/year)." The monthly report includes the following counts for VA death reports:
VA records received, VA records that pass the EVS check, number of T2 Alerts generated based on
VA death reports, and number of T16 Alerts generated based on VA death reports.

In November 2001, the Office of Systems Design and Development began compiling and
delivering two copies of the report to the Office of Systems Analysis (OSA). OSA reviews the data
to ensure that VA death information is processed correctly.

Recommendation 2

Process VA death information within a month of when it is received to ensure payments to
deceased beneficiaries are terminated promptly.


Comment

We agree. As OIG notes in the report, the cause of untimely processing stemmed from a format
problem in the VA's data file that was not recognized for a period of time. The actions we've noted
in response to recommendation one will ensure early detection of changes in formatting that could
impact the timeliness of Agency action to cease benefit payments. In addition, monthly VA death
report records are processed through DACUS on the evening of receipt (or on the following
Monday if the file is received over the weekend) for immediate processing.




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)                         C-2
                                                                          Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Acting Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   Arthur Giterman, Auditor

   Kevin Joyce, Auditor

   David Mazzola, Auditor-in-Charge

   Joseph LoVecchio, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-01-21038.




Controls Over SSA’s Processing of Death Records from VA (A-01-01-21038)
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs.
OEO supports the OIG components by providing information resources management; systems
security; and the coordination of budget, procurement, telecommunications, facilities and
equipment, and human resources. In addition, this Office coordinates and is responsible for the
OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. The quality assurance
division performs internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from the Agency. This division also conducts employee
investigations within OIG. The public affairs team communicates OIG’s planned and current
activities and the results to the Commissioner and Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
